No. __________

IN THE SUPREME COURT OF THE UNITED STATES
CHRISTOPHER EMORY CRAMER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
APPENDICES TO
PETITION FOR WRIT OF CERTIORARI
SEAN J. BOLSER
Counsel of Record
Federal Public Defender’s Office
Eastern District of New York
16th Floor
1 Pierrepont Plaza
Brooklyn, New York 11201
Tel. (718) 407-7406
Sean_Bolser@fd.org

DOUGLAS MILTON BARLOW
Barlow Law Firm
485 Milam
Beaumont, Texas 77701
Tel. (409) 838-4259
barlowfedlaw@gmail.com

ANTHONY SEYMOUR HAUGHTON
Capital Resource Counsel Project
c/o Federal Public Defender, Southern District of Texas
Suite 1350
440 Louisiana Street
Houston, Texas 77002
Tel. (832) 287-9548
Anthony_Haughton@fd.org
Counsel for Petitioner

TABLE OF CONTENTS
Appendix A: United States v. Fackrell; Cramer, 991 F.3d 589
(5th Cir. 2021) ................................................................................................... 1A
Appendix B: Order denying rehearing en banc,
United States v. Fackrell; Cramer
No. 18-40598 (5th Cir., May 17, 2021) ........................................................... 27A
Appendix C: Relevant Provisions .............................................................................. 30A

i

Appendix A
United States v. Fackrell; Cramer, 991 F.3d 589 (5th Cir. 2021)

001A

589

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

interval associated with Alternative 4 may
prevent this habitat from reforming completely.’’ Indeed, the Audubon Society’s
own public comment with respect to the
Corps’s Environmental Impact Statement
recognized the damage that would be
caused by nourishment every two years.
By contrast, the longer intervals between
nourishment events under Alternative 5
could provide habitats in both the Shallotte
Inlet and on the beach ‘‘more time to
recover.’’ Again, this was a consequence of
the basic design of Alternative 4, not the
product of the applied nourishment limit of
408,000 cubic yards per event.
Thus, when we take a ‘‘holistic view’’ of
the Corps’s process, rather than ‘‘flyspeck’’
any particular number that the Corps arrived at after a careful and informed analysis, we conclude that the Corps acted
reasonably. Webster v. U.S. Dep’t of Agric.,
685 F.3d 411, 421–22 (4th Cir. 2012) (quoting Nat’l Audubon Soc’y v. Dep’t of Navy,
422 F.3d 174, 186 (4th Cir. 2005)).

facts found and the choice[s] made.’’ Id.
Recognizing that our review is appropriately deferential, we affirm the Corps’s
actions. See 5 U.S.C. § 706.
The judgment of the district court is
AFFIRMED.

,
UNITED STATES of America,
Plaintiff—Appellee,
v.
Ricky Allen FACKRELL; Christopher
Emory Cramer, Defendants—
Appellants.
No. 18-40598
United States Court of Appeals,
Fifth Circuit.

***
[15] In the course of issuing an Environmental Impact Statement and granting
a permit under the CWA, the Corps collected a broad range of data drawn from
the facts and objectives of the project at
issue, historical statistics and records,
computer analyses, and opinions of other
specialized agencies, and it analyzed those
data to make judgments ultimately based
on its own special expertise under the
numerous criteria imposed by NEPA and
the CWA. In doing so, it was required to
provide ‘‘an explanation of its decision that
includes a rational connection between the
facts found and the choice made.’’ Am.
Whitewater, 770 F.3d at 1115 (quoting
Ohio Valley, 556 F.3d at 192). Based on
the record in this case, we readily conclude
that the Corps provided a reasonable explanation of its complex decisions that included ‘‘a rational connection between the

FILED March 12, 2021
Background: Defendants were convicted
in the United States District Court for the
Eastern District of Texas, Marcia A.
Crone, J., of first-degree murder and sentenced to death. Defendants appealed.
Holdings: The Court of Appeals, Stewart,
Circuit Judge, held that:
(1) denial of defendant’s motion to sever
was not abuse of discretion;
(2) defendants were not denied of right to
individualized sentencing at penalty
phase;
(3) denial of co-defendant’s motion to sever
on basis that defendant murdered another inmate only three months after
victim’s murder was not abuse of discretion;

002A

590

991 FEDERAL REPORTER, 3d SERIES

(4) convicting defendant on basis of aiding
and abetting in victim’s murder was
sufficient basis for concluding that he
had requisite mental state to be sentenced to death;
(5) government could argue that defendant
would pose danger to others in prison
and that executing him was only means
of eliminating threat to safety of other
inmates or prison staff;
(6) testimony about unrelated prisoner’s
death sentence later being vacated did
not violate Eighth Amendment; and
(7) government did not violate defendant’s
Fifth Amendment right by calling Bureau of Prisons (BOP) psychologists as
rebuttal witnesses.
Affirmed.
1. Criminal Law O1148
The denial of a motion for severance
is reviewed for abuse of discretion. Fed.
R. Crim. P. 14.

prejudice him during penalty phase, since
co-defendant’s statement was noncustodial,
voiding any suspicion of unreliability,
statements likely could have been introduced against defendant even in separate
trial as statement against interest, and
introduction of co-defendant’s previous offenses, mental health history, and mitigation case was mere surplusage or not extremely prejudicial. Fed. R. Crim. P. 14;
Fed. R. Evid. 801(d)(2)(A), 804(b)(3).
5. Criminal Law O622.6(2)
Severance is not mandated in any
case, including capital trials. Fed. R.
Crim. P. 14.
6. Sentencing and Punishment O1774
District court’s instructions in joint
capital murder trial remedied any conflating of defendants or evidence against each
of them, and therefore they were not denied of right to individualized sentencing
at penalty phase. Fed. R. Crim. P. 14.
7. Criminal Law O1144.15

2. Criminal Law O622.7(3)
Severance is not required even if prejudice is shown; the tailoring of the relief to
be granted, if any, is left to the district
court’s sound discretion. Fed. R. Crim. P.
14.

On appeal of a defendant’s claim that
a joint trial denied him of the right to
individualized sentencing, the Court of Appeals presumes the jury heard, understood, and followed the district court’s instructions. Fed. R. Crim. P. 14.

3. Criminal Law O622.7(3)
Severance is proper only if there is a
serious risk that a joint trial would compromise a specific trial right of one of the
defendants or prevent the jury from making a reliable judgment about guilt or innocence. Fed. R. Crim. P. 14.

8. Sentencing and Punishment O1774

4. Criminal Law O622.7(8, 9)
District court did not abuse its discretion by denying defendant’s motion to sever capital murder trial that had been made
on basis that co-defendant’s statements,
admissible as statements by party opponent, implicated him in murder and would

District court did not abuse its discretion by denying co-defendant’s motion to
sever capital murder trial that had been
made on basis that defendant’s murder of
another inmate only three months after
victim’s murder would be admissible at
penalty phase, since their mitigating cases
were similar and jury was expected to
follow district court’s instructions.
9. Sentencing and Punishment O1670
After a defendant is convicted of a
capital offense, the jury must determine
whether the defendant had a requisite

003A

591

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

mental state before sentencing him to
death. 18 U.S.C.A. § 3591(a)(2).

15. Sentencing
O1780(2)

10. Sentencing and Punishment O1670

Government’s statements at penalty
phase of capital murder trial, referring to
mitigating evidence as evidence mitigating
against crime committed, rather than as
evidence mitigating against imposition of
the death penalty, or that mitigating evidence did not make defendant’s crime less
severe, did not violate Eighth Amendment.
U.S. Const. Amend. 8.

Convicting defendant on basis of aiding and abetting in victim’s murder was
sufficient basis for concluding that he had
requisite mental state to be sentenced to
death.
18 U.S.C.A. §§ 3591(a)(2)(C),
3591(a)(2)(D).
11. Sentencing
O1788(3)

and

Punishment

Plain error review applied to issue of
whether jury determined that defendant
had requisite mental state before sentencing him to death, since defendant failed to
raise that issue at trial. 18 U.S.C.A.
§ 3591(a)(2).
12. Criminal Law O1030(1)
To establish plain error, a defendant
must prove (1) there was error, (2) the
error was plain, (3) the error affected his
substantial rights, and (4) the error seriously affected the fairness, integrity or
public reputation of judicial proceedings.
13. Sentencing and Punishment O1720
At penalty phase of capital murder
trial, government could argue that defendant would pose danger to others in prison
and that executing him was only means of
eliminating threat to safety of other inmates or prison staff.
18 U.S.C.A.
§ 3593(c).
14. Sentencing
O1758(1)

and

Punishment

Testimony at penalty phase of defendant’s capital murder trial about unrelated
prisoner’s death sentence later being vacated did not violate Eighth Amendment,
since it did not permit jury to believe that
responsibility for determining appropriateness of defendant’s death rested elsewhere. U.S. Const. Amend. 8.

and

Punishment

16. Criminal Law O1153.1
Evidentiary challenges are reviewed
for abuse of discretion.
17. Sentencing
O1789(9)

and

Punishment

Any error was harmless in government’s statements at penalty phase of capital murder trial, referring to mitigating
evidence as evidence mitigating against
crime committed, rather than as evidence
mitigating against imposition of the death
penalty, or that mitigating evidence did
not make defendant’s crime less severe,
given government and district court’s curative measures; government said that mitigation evidence was not something that
excused or justified that crime, but it did
have to be something that mitigated death
penalty, and district court’s instructions
included similar definition of mitigating evidence. 18 U.S.C.A. § 3595(c)(2).
18. Criminal Law O1037.1(2)
Government’s statements at defendant’s capital murder trial, urging jury to
convict him of first-degree murder to avoid
‘‘less justice,’’ ‘‘half justice,’’ or ‘‘no justice’’
for victim, and that ‘‘[t]here is really not
any evidence to suggest that [defendant
did not] intend to kill [victim],’’ were not
plainly erroneous and did not affect defendant’s substantial rights.

004A

592

991 FEDERAL REPORTER, 3d SERIES

19. Sentencing and Punishment O1765
After defendant put his mental health
at issue at penalty phase of his capital
murder trial by introducing evidence and
testimony from psychologists and person
who held doctoral degree in criminal justice, describing his past and current struggles with depression, suicide, and other
untreated diagnoses, government did not
violate his Fifth Amendment right by calling Bureau of Prisons (BOP) psychologists
as rebuttal witnesses even if defendant had
not been warned that his statements to
those psychologists could be used against
him at trial. U.S. Const. Amend. 5.
20. Sentencing and Punishment O1769
The government may use its own expert witnesses to rebut a defendant’s experts when he places his mental health at
issue at the penalty phase of a capital
murder trial; allowing a defendant to introduce favorable psychological testimony and
then preventing the prosecution from resorting to other psychological testimony,
as the most effective and, in most instances, the only means of rebuttal, would be
unfair and improper.
21. Sentencing and Punishment O1765
After defendant put his mental health
at issue at penalty phase of his capital
murder trial by introducing mitigating evidence and testimony from psychologists,
describing his past and current struggles
with depression, suicide, and other untreated diagnoses, government did not violate defendant’s Sixth Amendment right to
counsel by calling Bureau of Prisons
(BOP) psychologists as rebuttal witnesses;
even if defendant had not been warned
that his statements to BOP psychologists
could be used against him at trial, those
evaluations were not carried out in order
to assess defendant’s future dangerousness, but, instead, were routine and in

keeping with their duty of care to all inmates. U.S. Const. Amend. 6.
22. Criminal Law O1139
De novo review applies to a defendant’s objection to testimony from prosecution psychologists on the basis of the
Sixth Amendment. U.S. Const. Amend. 6.
23. Privileged Communications
Confidentiality O312

and

Common law psychotherapist-patient
privilege did not apply to testimony from
Bureau of Prisons (BOP) psychologists as
rebuttal witnesses after defendant put his
mental health at issue at penalty phase of
his capital murder trial by introducing mitigating evidence and testimony from psychologists, describing his past and current
struggles with depression, suicide, and other untreated diagnoses, since that testimony did not create risk of unfair prejudice,
confusing issues, or misleading jury. U.S.
Const. Amends. 5, 6; 18 U.S.C.A. § 3593(c);
Fed. R. Evid. 501.
24. Privileged Communications
Confidentiality O312

and

The application of the psychotherapist-patient privilege is a legal question.
25. Sentencing
O1789(3)

and

Punishment

Plain error review applied to issue of
whether testimony from Bureau of Prisons
(BOP) psychologists at penalty phase of
defendant’s capital murder trial violated
common law psychotherapist-patient privilege, since defendant did not raise issue
before district court. Fed. R. Evid. 501.
26. Sentencing and Punishment O1756
All evidence is admissible at the penalty phase of capital murder trial unless it
creates the risk of unfair prejudice, confuses the issues, or misleads the jury. 18
U.S.C.A. § 3593(c).

005A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

27. Privileged Communications and
Confidentiality O312
The psychotherapist-patient privilege
prevents the admission of communications
between psychotherapists and patients,
and the privilege applies where the Federal Rules of Evidence apply. Fed. R. Evid.
501.
28. Sentencing
and
Punishment
O1789(3)
Any error was not plain in allowing
testimony from Bureau of Prisons (BOP)
psychologists as rebuttal witnesses after
defendant put his mental health at issue at
penalty phase of his capital murder trial
by introducing mitigating evidence and
testimony from psychologists related to his
history of depression, even if common law
psychotherapist-patient privilege applied
and defendant did not waive that privilege.
18 U.S.C.A. § 3593(c); Fed. R. Evid. 501.
29. Criminal Law O1030(1)
A plain error is one that is so clear or
obvious that the trial judge and prosecutor
were derelict in countenancing it, even absent the defendant’s timely assistance in
detecting it.
30. Sentencing
and
Punishment
O1789(3)
Any error was not plain in admitting
testimony from government mental health
rebuttal witness who gave broad overview
of defendant’s life, including his difficult
childhood, impact of that childhood on his
development, and his lack of remorse for
his crimes, and did not stray far from
topics defendant raised in penalty phase of
capital murder trial. U.S. Const. Amend.
5; Fed. R. Crim. P. 12.2.
31. Sentencing
and
Punishment
O1789(3)
Plain error review applied to issue of
whether government’s use of mental health
rebuttal witnesses in penalty phase of capi-

593

tal murder trial violated Federal Rule of
Criminal Procedure governing reciprocity
of testimony and Fifth and Sixth Amendments, since defendant did not object at
trial. U.S. Const. Amends. 5, 6; Fed. R.
Crim. P. 12.2.
32. Sentencing and Punishment O1763
Evidence that Bureau of Prisons
(BOP) warden stated that victim was primarily responsible for his death because
he joined gang and defied gang’s rules
prohibiting drinking and gambling, in answer to wrongful death claim in civil suit
brought by relatives of murder victim
against warden, was not relevant to rebut
government’s evidence related to victimimpact aggravator at penalty phase of trial
which alleged that defendant committed
capital murder to maintain his reputation,
and relationship between two cases was so
attenuated as to risk confusing jury. 18
U.S.C.A. § 3593(c); Fed. R. Evid. 401, 402.
33. Sentencing and Punishment O1757
Plea deal offered to co-defendant in
murder defendant committed three months
after killing victim at issue was not admissible as mitigating evidence at penalty
phase of defendant’s capital murder trial.
34. Criminal Law O1153.1, 1170(1)
A district court’s decision to exclude
information is reviewed for abuse of discretion; if there was error, reversal is required unless the government can show it
was harmless beyond a reasonable doubt.
35. Constitutional Law O4744(2)
Excluding mitigating evidence at the
penalty phase may violate a capital defendant’s right to due process. U.S. Const.
Amend. 5.
36. Sentencing and Punishment O1757
At the penalty phase a capital murder
trial, a defendant may put on mitigating
evidence of his co-defendant’s culpability in

006A

594

991 FEDERAL REPORTER, 3d SERIES

a trial for the related offense. 18 U.S.C.A.
§ 3592(a)(4).

42. Sentencing
O1788(10)

37. Sentencing
O1789(9)

Any error was harmless in district
court’s decision at penalty phase of defendant’s capital murder trial to reject categorical approach in determining that his
previous convictions were statutory aggravators, since defendant’s prior convictions
were admissible at selection phase as nonstatutory aggravators.
18 U.S.C.A.
§§ 3592(c)(2), 3592(c)(4).

and

Punishment

Any error was harmless in excluding
mitigating evidence at penalty phase of
defendant’s capital murder trial of plea
deal offered to co-defendant for murder
defendant committed three months after
killing victim at issue, since jury already
saw videos of assault on second victim
where defendant stomped on his head, jurors found several mitigating factors related to second victim’s murder, and plea
would not have diminished defendant’s culpability or otherwise mitigated against
sentence
of
death.
18
U.S.C.A.
§ 3592(a)(8).
38. Sentencing and Punishment O1762
At penalty phase of defendant’s capital murder trial, government could use
defendant’s role in prior assault charge as
evidence of future dangerousness; although defendant had been acquitted of
that assault, government was not required
to prove assault beyond reasonable doubt
to mention it at punishment phase.
39. Sentencing
O1789(3)

and

Punishment

Plain error review applied to issue of
whether government could use acquitted
conduct at penalty phase of capital murder
trial.
40. Res Judicata O200
An acquittal in a criminal case does
not preclude the government from relitigating an issue when it is presented in a
subsequent action governed by a lower
standard of proof.
41. Sentencing and Punishment O1762
Extraneous offenses offered at the
punishment phase of a capital trial need
not be proven beyond a reasonable doubt.

43. Sentencing
O1788(5)

and

and

Punishment

Punishment

De novo review applied to district
court’s decision at penalty phase of defendant’s capital murder trial to reject
categorical approach in determining that
defendant’s previous convictions were
statutory aggravators, since decision was
legal
conclusion.
18
U.S.C.A.
§§ 3592(c)(2), 3592(c)(4).
44. Sentencing
O1788(10)

and

Punishment

Harmless-error review applied to
analysis of district court’s decision at penalty phase of defendant’s capital murder
trial to reject categorical approach in determining that his previous convictions
were statutory aggravators. 18 U.S.C.A.
§§ 3592(c)(2), 3592(c)(4).
45. Sentencing and Punishment O1705
Defendant’s Hobbs Act robbery conviction could be listed as aggravator at
penalty phase of his capital murder trial
even though Hobbs Act extortion may be
accomplished without use of force. 18
U.S.C.A. § 3592(c).
46. Sentencing
O1788(5)

and

Punishment

De novo review applied to issue of
whether defendant’s Hobbs Act robbery
conviction could be listed as aggravator at
penalty phase of his capital murder trial,

007A

595

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

since defendant preserved argument at trial. 18 U.S.C.A. § 3592(c).
47. Sentencing and Punishment O1705
Hobbs Act robbery is a crime of violence, and therefore qualifies as an aggravator at the penalty phase of a capital
murder trial. 18 U.S.C.A. § 3592(c).
48. Sentencing
O1779(3)

and

Punishment

At penalty phase of defendant’s capital murder trial, jurors could first evaluate
whether defendant proved existence of
some facts and then determine they were
mitigating, or answered both questions at
once, since jurors could consider ‘‘any mitigating factor.’’ 18 U.S.C.A. §§ 3592(a),
3593(d).
49. Criminal Law O1152.21(1)
The Court of Appeals reviews a challenge to jury instructions for abuse of discretion, affording the trial court substantial latitude in describing the law to the
jurors.
50. Sentencing
O1789(3)

and

Punishment

District court did not plainly err at
penalty phase of defendant’s capital murder trial by focusing jury’s analysis on
particular pieces of evidence.
51. Sentencing
O1789(3)

and

Punishment

Plain error review applied to issue of
whether district court impermissibly ‘‘marshalled the evidence’’ on jury instructions
for future dangerousness at penalty phase
of defendant’s capital murder trial.

53. Sentencing
O1779(1)

and

Punishment

District court did not abuse its discretion at penalty phase of defendant’s capital
murder trial by not providing non-unanimity instruction in response to jurors’ question asking about consequences of nonunanimous verdict; Congress did not require such instruction among mandatory
instructions that district court had to give.
18 U.S.C.A. § 3593(f).
54. Criminal Law O1155
Supplemental jury instructions are reviewed for abuse of discretion in light of
the entire charge.
55. Sentencing
O1779(1)

and

Punishment

At penalty phase of defendant’s capital murder trial, district court could respond in writing to jurors’ question asking
about consequences of non-unanimous verdict by stating ‘‘please continue your deliberations,’’ rather than responding in open
court.
56. Criminal Law O863(2)
When evaluating the adequacy of supplemental jury instructions, the Court of
Appeals asks whether the district court’s
answer was reasonably responsive to the
jury’s question and whether the original
and supplemental instructions as a whole
allowed the jury to understand the issue
presented to it.
57. Sentencing
O1780(3)

and

Punishment

At penalty phase of defendant’s capital murder trial, district court could instruct jurors that they had to consider
evidence individually to render verdict.

52. Criminal Law O656(1)

58. Criminal Law O1110(6)

A court should refrain from commenting on the evidence at trial and should
avoid one-sided summaries or comments.

Discussion of testimony by witness in
unrecorded conference in chambers was
not ‘‘hearing or trial’’ within meaning of

008A

596

991 FEDERAL REPORTER, 3d SERIES

Federal Rule of Appellate Procedure permitting appellant to prepare part of record
from recollection. Fed. R. App. P. 10(a),
10(c).
59. Criminal Law O1109(3)
Where the defendant has new counsel
on appeal, the Court of Appeals will reverse if (1) a missing portion of the record
is substantial and significant, and (2) the
trial court’s reconstruction is not a substantially verbatim account. Fed. R. App.
P. 10(a), 10(c).
60. Criminal Law O1086.11
Jury charge conference was not ‘‘session of the court’’ pursuant to Court Reporter’s Act, since it did not occur in open
court. 28 U.S.C.A. § 753.
61. Criminal Law O1186.1
An appellate court may reverse a conviction by aggregating otherwise non–reversible errors that combine to deny the
defendant’s right to a fair trial.
62. Criminal Law O1186.1
Cumulative reversal is unavailable
when the district court did not make any
errors.

Borde, P.C., Houston, TX, for DefendantAppellant Ricky Allen Fackrell.
Douglas Milton Barlow, Barlow Law
Firm, Beaumont, TX, Sean Joseph Bolser,
Federal Public Defender’s Office, Eastern
District of New York, Brooklyn, NY, Anthony Seymour Haughton, Esq., Capital
Resource Counsel Project, c/o Federal
Public Defender Southern District of Texas, Houston, TX, for Defendant-Appellant
Christopher Emory Cramer.
Before STEWART, DUNCAN, and
WILSON, Circuit Judges.
CARL E. STEWART, Circuit Judge:
We withdraw our prior opinion in United States v. Fackrell, No. 18-40598, 2021
WL 926905 (5th Cir. Mar. 11, 2021). The
following opinion is substituted therefor.
Defendants Ricky Fackrell and Christopher Cramer were convicted and sentenced to death for the prison murder of
Leo Johns, a fellow inmate. They appeal
their convictions and sentences on numerous grounds. We AFFIRM.
I. FACTS

Appeal from the United States District
Court for the Eastern District of Texas,
USDC No. 1:16-CR-26, Marcia A. Crone,
U.S. District Judge
Joseph Robert Batte, Jr., Assistant U.S.
Attorney, U.S. Attorney’s Office, Eastern
District of Texas, Beaumont, TX, Bradley
Elliot Visosky, Assistant U.S. Attorney,
Stephan Edward Oestreicher, Jr., U.S. Attorney’s Office, Eastern District of Texas,
Plano, TX, for Plaintiff-Appellee.
Donna F. Coltharp, Judy Fulmer Madewell, Assistant Federal Public Defender,
Federal Public Defender’s Office, Western
District of Texas, San Antonio, TX, Nicole
Wignall DeBorde, Esq., Hochglaube & De-

AND

PROCEDURAL HISTORY

Ricky Allen Fackrell and Christopher
Cramer were imprisoned at USP Beaumont. Both were convicted of the June
2014 prison murder of Leo Johns. Fackrell
was a lieutenant in the Soldiers of Aryan
Culture (‘‘SAC’’), a prison gang whose
members abstained from drinking, drugs,
and gambling. Members were recruited
based on their beliefs in white supremacy
and paganism. Cramer was a general in
the SAC, and Johns was a member.
1. Fackrell
Fackrell has several previous convictions, including convictions for aggravated
assault, robbery, and possession of a pro-

009A

597

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

hibited object. His prison record denotes
several instances of misconduct including
fights and property damage. He was also
charged with the murder of a second inmate three months after Johns’s death.
As to Johns’s murder, Fackrell argued
that he and Cramer only agreed to assault
Johns. Johns had been drinking and gambling in violation of SAC rules, and Cramer determined that he needed to be punished. Fackrell and Cramer stabbed Johns
with shanks in an inmate’s cell. Fackrell
argues that he stabbed Johns but left the
cell before he died and that Cramer ‘‘finished Johns off.’’
At trial, Fackrell’s defense was that he
neither intended to kill nor killed Johns.
Instead, Fackrell argued that he was present while Cramer killed Johns, that Cramer ordered him to participate in the assault, and that they only planned to ‘‘touch
up [Johns] a little bit.’’ The jury rejected
Fackrell’s defense and found him guilty of
first-degree murder.
During the penalty phase of trial, Fackrell’s mitigating evidence centered on his
childhood. His father was an alcoholic and
his mother was often working to support
the family. They frequently moved around,
and Fackrell was bullied and abused by his
father and brothers. He began drinking,
using drugs, and committing crimes with
his family when he was between 10 and 14
years old.
Fackrell’s other mitigating evidence centered on his mental health diagnoses and
ability to be reformed in structured environments like that of USP Florence-ADMAX (‘‘ADX’’), a maximum-security prison
in Florence, Colorado. Fackrell was sent to
ADX to await trial for Johns’s murder.
Though individual jurors found that
Fackrell had proven some mitigating factors, the jury sentenced him to death.

2. Cramer
Christopher Cramer was Fackrell’s codefendant at trial and sentencing. He has
prior convictions for bank robbery and use
of a firearm in relation to a crime of
violence. He also has committed several
instances of prison misconduct including
assaults on other inmates.
At trial, Cramer’s defense to Johns’s
murder was that he only intended to assault Johns and did not intend to kill him.
He argued that his previous visits to
Johns’s cell on the day of Johns’s murder
indicated that he lacked the intent to kill
Johns. The jury rejected his argument and
convicted him of first-degree murder.
At sentencing, Cramer’s mitigating evidence focused on his dysfunctional childhood and his ability to be safely housed at
ADX. Cramer had a difficult upbringing—
his mother was a prostitute and a drug
addict; his father was a pimp and a drug
dealer. His family moved frequently and
slept in cars and parks. Due to his parents’
absence, Cramer had to care for his younger siblings. He stole food to feed them
and ‘‘was his siblings’ hero.’’
His other mitigation evidence centered
on ADX’s ability to safely house him if he
was sentenced to life. He argued that he
was unlikely to ever leave a maximumsecurity prison given the severity of his
crimes.
Both Defendants were convicted of firstdegree murder and sentenced to death.
They now appeal their convictions and sentences.
II. DISCUSSION
Fackrell and Cramer argue that the
Government and the district court committed numerous errors at trial and at sentencing. We review each alleged error in
turn.

010A

598

991 FEDERAL REPORTER, 3d SERIES

A. Severance
Prior to trial, Fackrell and Cramer
moved to sever. Fackrell requested separate trials, while Cramer requested separate trials, separate penalty-phase presentations, and separate penalty-phase juries.
Both argue that the district court erred by
denying their motions to sever. We disagree.
[1] We review the denial of a motion
for severance for abuse of discretion. United States v. Rocha, 916 F.2d 219, 227 (5th
Cir. 1990).
‘‘Under Rule 14, ‘[i]f the joinder of offenses or defendants in an indictment TTT
appears to prejudice a defendant or the
government, the court may order separate
trials of counts, sever the defendants’ trials, or provide any other relief that justice
requires.’ ’’ United States v. Snarr, 704
F.3d 368, 396 (5th Cir. 2013) (alteration in
original) (quoting FED. R. CRIM. P. 14).
[2, 3] Even if prejudice is shown, severance is not required. Zafiro v. United
States, 506 U.S. 534, 538–39, 113 S.Ct. 933,
122 L.Ed.2d 317 (1993). The district court
still has discretion to grant relief. Id. at
539, 113 S.Ct. 933. ‘‘Severance is proper
‘only if there is a serious risk that a joint
trial would compromise a specific trial
right of one of the defendants or prevent
the jury from making a reliable judgment
about guilt or innocence.’ ’’ United States
v. Mitchell, 484 F.3d 762, 775 (5th Cir.
2007) (quoting Zafiro, 506 U.S. at 539, 113
S.Ct. 933).
1. Fackrell’s severance arguments
[4] Fackrell argues that the joint trial
prejudiced his rights at the guilt phase
because the Government introduced Cramer’s statements that implicate Fackrell in
Johns’s murder. Cramer told his cellmate
that Fackrell volunteered to go to Johns’s
cell, that Fackrell jumped Johns from be-

hind, and that he and Fackrell killed
Johns. The Government introduced the
statements under Federal Rule of Evidence 801(d)(2)(A), and Fackrell argues
that the statements were prejudicial,
lacked reliability, and would not have been
introduced against him if he were tried
separately.
He also argues that the joint trial prejudiced him during the penalty phase because it allowed Defendants to be conflated, their mitigation cases to be compared,
and Cramer’s personality disorder and
prison assault history to be introduced.
Fackrell’s arguments are unpersuasive.
Cramer’s statements are not so prejudicial
as to be an abuse of the trial court’s discretion in admitting them. His statements
were not given in a custodial context, voiding any suspicion of unreliability present in
other cases. See United States v. Ebron,
683 F.3d 105, 133 (5th Cir. 2012). Furthermore, Cramer’s statements likely could
have been introduced against Fackrell
even in a separate trial as a statement
against interest under Federal Rule of Evidence 804(b)(3).
[5–7] Rule 14 does not mandate severance in any case, including capital trials.
See FED. R. CRIM. P. 14. The introduction of
Cramer’s previous offenses, mental health
history, and mitigation case was not so
prejudicial as to curtail the district court’s
discretion to deny severance. Ample evidence of each defendant’s criminal histories and prison misconduct is in the record,
and mere surplusage of this evidence does
not compel severance. See United States v.
Bieganowski, 313 F.3d 264, 287 (5th Cir.
2002) (‘‘A spillover effect, by itself, is an
insufficient predicate for a motion to sever.’’). Nor did the joint trial deny Defendants the right to individualized sentencing
under Lockett v. Ohio, 438 U.S. 586, 98
S.Ct. 2954, 57 L.Ed.2d 973 (1978). Any

011A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

conflating of the Defendants or the evidence against each of them was remedied
by the district court’s instructions, and we
‘‘must presume that the jury heard, understood, and followed the district court’s instructions.’’ United States v. Bernard, 299
F.3d 467, 476 (5th Cir. 2002).
2. Cramer’s severance arguments
[8] Cramer’s severance arguments
mirror Fackrell’s, mainly that he was prejudiced by evidence of Fackrell’s prior convictions and prison misconduct. Those arguments fail under Bieganowski as well.
Notably, Cramer argues that he was
prejudiced at sentencing when the Government introduced evidence of Fackrell’s
involvement in a second prison murder.
After Fackrell was charged in Johns’s
murder, he was charged in the murder of
another inmate, Ronald Griffith.1 The jury
heard that only three months after Johns’s
murder, Fackrell brutally stomped on
Griffith’s head and said that he ‘‘didn’t
really care that he stomped [Griffith] out.’’
While evidence of Fackrell’s role in the
Griffith murder was more shocking than
evidence of other crimes and prison incidents, we cannot conclude that this evidence compels severance. The jury’s similar findings on the Defendants’ mitigating
factors reflect the similarity between the
Defendants’ mitigating cases rather than
any confusion by the jury. Nothing suggests that the jury failed to follow the
district court’s instructions and impermissibly considered the Griffith murder when
evaluating Cramer’s case for life.

599

B. Mental States under 18
U.S.C. § 3591(a)(2)
[9, 10] After a defendant is convicted
of a capital offense, the jury must determine whether the defendant had a requisite mental state under 18 U.S.C.
§ 3591(a)(2) before sentencing him to
death. Fackrell and Cramer argue for the
first time that the Government failed to
prove that they had one of the requisite
mental states when they killed Johns. We
disagree.
[11, 12] Since Defendants failed to
raise this issue at trial, review is for plain
error. United States v. Avants, 367 F.3d
433, 443 (5th Cir. 2004). To establish plain
error, Fackrell must prove that ‘‘(1) there
was error, (2) the error was plain, (3) the
error affected his ‘substantial rights,’ and
(4) the error seriously affected ‘the fairness, integrity or public reputation of judicial proceedings.’ ’’ United States v. Jones,
489 F.3d 679, 681 (5th Cir. 2007) (quoting
United States v. Olano, 507 U.S. 725, 732–
734, 113 S.Ct. 1770, 123 L.Ed.2d 508
(1993)).
18 U.S.C. § 3591(a)(2)(A)–(D) lists four
mental states. The Government must
prove at least one mental state in
§ 3591(a)(2) beyond a reasonable doubt. It
must prove that Defendants:
(A) intentionally killed the victim;
(B) intentionally inflicted serious bodily
injury that resulted in the death of the
victim;

We find no error in the district court’s
denial of Defendants’ motions to sever and
thus affirm.

(C) intentionally participated in an act,
contemplating that the life of a person
would be taken or intending that lethal
force would be used in connection with a
person, other than one of the participants in the offense, and the victim died
as a direct result of the act; or

1.

infra Section G.

Griffith’s murder will be further discussed

012A

600

991 FEDERAL REPORTER, 3d SERIES

(D) intentionally and specifically engaged in an act of violence, knowing that
the act created a grave risk of death to a
person, other than one of the participants in the offense, such that participation in the act constituted a reckless
disregard for human life and the victim
died as a direct result of the act.

dangerousness and the jury’s responsibility for Defendants’ death sentences and (2)
mitigation evidence, arguing that the statements violated their Fifth and Eighth
Amendment rights. Fackrell also challenges the Government’s statements about
getting justice for the victim and the lack
of evidence of his intent to kill Johns.

18 U.S.C. § 3591(a)(2)(A)–(D).
Fackrell argues that the Government
did not prove that he had a requisite mental state when he participated in Johns’s
murder. He argues that the jury could not
have concluded that he had one of the
requisite mental states in § 3591(a)(2)(B)–
(D) because they all require actions that
result in the death of the victim. Because
the coroner did not determine which blow
was fatal, Fackrell argues that the jury
could not have determined that he was the
but-for cause of Johns’s death. In his view,
the jury convicted him of first-degree murder because he aided and abetted in
Johns’s murder, and this level of culpability does not demonstrate that he had a
requisite mental state.
This argument fails because aiding and
abetting liability does satisfy the requisite
mental states in § 3591(a)(2)(C) and (D).
See United States v. Williams, 610 F.3d
271, 287 (5th Cir. 2010); United States v.
Paul, 217 F.3d 989, 998 (8th Cir. 2000).
Even if the jury convicted Fackrell on the
basis of aiding and abetting in Johns’s
murder, that finding is a sufficient basis
for concluding that he had the requisite
mental states under § 3591(a)(2)(C) and
(D). We thus cannot conclude that there
was error, let alone plain error. We affirm.
C. Prosecutorial Misconduct
in Statements
[13] Fackrell and Cramer challenge
several statements made by the Government at trial. They jointly challenge the
Government’s statements about (1) future

1. Joint Challenge of Statements on
Future Danger and Jury Role
in Sentencing
Defendants jointly challenge the Government’s statements on future dangerousness and the jury’s responsibility for their
death sentences. They argue that the Government committed misconduct by eliciting
testimony from witnesses about their ability to be released from maximum-security
prison and then arguing that Defendants
were likely to pose future danger. They
also argue that the Government erred by
implying that an appellate court would review a sentence of death. We disagree.
a.

Future Danger

During the penalty-phase of trial, both
the Government and Defendants called experts on future dangerousness. Defendants
called Dr. Gravette, and the Government
called Dr. Berkebile. Both testified about
several maximum-security inmates with no
relation to this case, including David Hammer. Hammer was originally sentenced to
death, a court vacated his death sentence,
and he was sentenced to life in a maximum-security prison. Hammer then killed
another inmate.
The Government’s future dangerousness
argument used the experts’ testimony
about Hammer and other inmates to suggest that even maximum-security prisons
could not contain some inmates. The Government further suggested that Defendants could one day be released from maximum-security prison and pose further

013A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

danger in a less secure prison environment.
Though the record is not clear as to
whether Defendants objected to the statements, Defendants’ arguments fail even
when reviewed for abuse of discretion. See
Snarr, 704 F.3d at 399.
The Federal Death Penalty Act permits
the introduction of aggravating and mitigating evidence unless ‘‘its probative value
is outweighed by the danger of creating
unfair prejudice.’’ 18 U.S.C. § 3593(c). Our
court has made clear just how broad that
evidentiary standard is, concluding that
‘‘[w]here the alternative to the death penalty is life imprisonment, the government
‘is free to argue that the defendant will
pose a danger to others in prison and that
executing him is the only means of eliminating the threat to the safety of other
inmates or prison staff.’ ’’ Snarr, 704 F.3d
at 394 (quoting Simmons v. S. Carolina,
512 U.S. 154, 165 n.5, 114 S.Ct. 2187, 129
L.Ed.2d 133 (1994)). Defendants’ arguments therefore fail.
b.

601

This testimony came up again when the
Government examined Dr. Berkebile and
said Hammer ‘‘had received a death sentence [and] it was converted to life TTTT’’
Defendants argue that this testimony violated the Eighth Amendment by permitting the jury ‘‘to believe that the responsibility for determining the appropriateness
of the defendant’s death rests elsewhere.’’
Caldwell v. Mississippi, 472 U.S. 320, 329,
105 S.Ct. 2633, 86 L.Ed.2d 231 (1985).
This argument is incorrect because this
case is distinguishable from Caldwell. In
Caldwell, the Supreme Court vacated a
death sentence after the prosecutor told
the jury that their decision was not the
final decision and that it would be reviewed by the Supreme Court. Id. at 325–
26, 105 S.Ct. 2633 (1985). Here, the Government’s statements are substantially different from those requiring reversal in
Caldwell. The Government’s statements
were not in error, let alone plain error. We
affirm.
2. Joint Challenge to Mitigation
Statements

Jury Responsibility

[14] Defendants also argue that the
testimony about Hammer’s death sentence
later being vacated allowed the jury to
think it was not ultimately responsible for
their death sentences.
Defendants failed to object to the testimony at trial, so review is for plain error.
See Avants, 367 F.3d at 443.
The Government asked Dr. Gravette
about David Hammer, and the testimony
was as follows:
Question from the Government: ‘‘And
[Hammer] was originally given a death
sentence, but for some legal reasons that
sentence was later overturned. Am I
right so far?’’
Answer from Dr. Gravette: ‘‘Yes
ma’am.’’

[15] Defendants challenge the Government’s statements that referred to mitigating evidence as evidence mitigating against
the crime committed, rather than as evidence mitigating against the imposition of
the death penalty. After Defendants presented mitigating evidence related to their
childhood traumas, the Government responded with,

014A

‘‘Well, you may very well find that that’s
a true statement, that you find that the
defense has proven that by a preponderance of the evidence. But does that
mean that it mitigates against a sentence of death? Does that mean the fact
that if things were different, then he
wouldn’t have committed the crime or he
wouldn’t have been in prison?’’

602

991 FEDERAL REPORTER, 3d SERIES

Defendants did not object to this statement. The Government later asked whether evidence about Fackrell’s father’s drinking mitigated Johns’s murder. Defendants
objected to that statement, but their objections were overruled.
[16] We review Defendants’ evidentiary challenges for abuse of discretion. See
Ebron, 683 F.3d at 133.
Though Defendants challenge the Government’s statements linking mitigating
evidence to evidence that makes the crime
less severe, the statements do not warrant
reversal. In Boyde v. California, the Supreme Court did not reverse on similar
language—that the mitigating evidence did
not make the defendant’s crime any ‘‘less
serious.’’ 494 U.S. 370, 385–86, 110 S.Ct.
1190, 108 L.Ed.2d 316 (1990). We find no
error in the district court’s denial of Defendants’ motion.
[17] Furthermore, any potential error
is rendered harmless by both the Government and district court’s curative measures. Though the Government made the
mitigation statements described above, it
also said that mitigation evidence ‘‘[is] not
something that excuses or justifies the
crime; but it does have to be something
that mitigates the death penalty.’’ Likewise, the district court’s instructions included a similar definition of mitigating
evidence that tracks our precedent. The
Government has sufficiently demonstrated
that any error is harmless beyond a reasonable doubt. See 18 U.S.C. § 3595(c)(2).

any evidence to suggest that Fackrell
didn’t intend to kill Leo Johns.’’
Since Fackrell did not object to these
statements, we review only for plain error.
See Avants, 367 F.3d at 443.
To establish plain error, Fackrell must
prove that ‘‘(1) there was error, (2) the
error was plain, (3) the error affected his
‘substantial rights,’ and (4) the error seriously affected ‘the fairness, integrity or
public reputation of judicial proceedings.’ ’’
Jones, 489 F.3d at 681 (quoting Olano, 507
U.S. at 734, 113 S.Ct. 1770).
Fackrell’s argument that the statements
were in plain error is unconvincing. Even
assuming that the statements were error,
we cannot conclude that the error was
plain or affected his substantial rights. See
United States v. Rosenberger, 502 F. App’x
389, 394–95 (5th Cir. 2012) (‘‘[T]he references to TTT achieving justice for Rosenberger’s victims fall well short of any realistic likelihood of prejudice.’’).
Fackrell also fails to demonstrate plain
error in the Government’s statements that
there was no evidence that he did not
intend to kill Johns. Though the Government’s statement ‘‘could have been more
artfully put,’’ it is best understood as a
summary of Fackrell’s rebuttal evidence
and therefore not in error. Moreover, any
error stemming from these statements
would not impact Fackrell’s substantial
rights. See id. at 395. Fackrell’s argument
fails, and we affirm the district court.

3. Fackrell’s Challenge to Statements
about Justice and Intent to Kill

D. Testimony of Two Bureau
of Prisons Psychologists

[18] Fackrell next points to the Government’s statements urging the jury to
convict him of first-degree murder to avoid
‘‘less justice,’’ ‘‘half justice,’’ or ‘‘no justice’’
for Johns. He then points to the Government’s statement that ‘‘[t]here is really not

[19] Fackrell next argues that the rebuttal testimony of two Bureau of Prisons
(‘‘BOP’’) psychologists violated his rights.

2.

Though Fackrell initially designated Dr.

He offered various forms of mitigating
evidence related to his mental health. He
presented the records of Dr. Clemmer,2 a
Clemmer as a testifying witness, he chose not

015A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

BOP psychologist from ADX who treated
Fackrell after Johns’s murder (but before
trial). Dr. Clemmer’s notes describe Fackrell’s history of depression while at USP
Beaumont and note that USP Beaumont
staff failed to respond to Fackrell’s requests for psychological help in February
2009, December 2014, and January 2015.
Fackrell offered testimony and evidence
from psychologist Matthew Mendel. Mendel testified that Fackrell’s juvenile records showed that he attempted suicide and
had a provisional diagnosis of major depressive disorder that went untreated. He
also testified that Dr. Clemmer’s notes
indicated that her treatment was helping
Fackrell and causing ‘‘profound changes’’
in his behavior.
Fackrell also offered testimony from
Robert Johnson, who holds a doctoral degree in criminal justice. Robert Johnson
testified that Fackrell was suicidal when
he arrived at ADX but had received help
from the ADX staff. He also testified that
Fackrell told him that he hoped to get
treatment for his mental health issues and
move forward with his life.
To rebut Fackrell’s mitigation evidence,
the Government called Dr. Shara Johnson
and Dr. Brown, two BOP psychologists
who treated Fackrell while he was at USPBeaumont. Fackrell argues that their testimony violated his Fifth Amendment right
against self-incrimination, his Sixth
Amendment right to counsel, and the psychotherapist-patient privilege.
1. Right Against Self-Incrimination
Fackrell first challenges the testimony
of the BOP psychologists as violative of his
to call her to testify. The Government initially
objected to Fackrell’s motion to enter her
records as evidence, but the Government ultimately withdrew its objection.

603

Fifth Amendment protection against selfincrimination. We disagree.
Fackrell did not object to the testimony
of Drs. Shara Johnson and Brown on the
basis that they violated his Fifth Amendment right against self-incrimination. In
fact, counsel expressly stated that ‘‘we’re
not objecting to the government calling a
rebuttal witness to say they disagree with
the diagnosis of whatever it is they are
going to say.’’ Though counsel objected to
the admission of Dr. Brown’s notes 3 under
the Sixth, Eighth, and Fourteenth Amendments, those objections do not preserve
any error based on the Fifth Amendment
right against self-incrimination. See FED.
R. EVID. 103(a)(1)(B) (‘‘A party may claim
error in a ruling to admit or exclude evidence only if the error affects a substantial
right of the party, and if the ruling admits
evidence TTT [the party must] timely object or move to strike; and state the specific ground TTT.’’); see also United States v.
Seale, 600 F.3d 473, 485–87 (5th Cir. 2010).
Nor can we say that the unoffered objection was apparent from the context. See id.
Because no objection was made on this
ground, review is for plain error. Avants,
367 F.3d at 443.
Dr. Shara Johnson treated Fackrell between January 2015 and August 2016, and
she testified that he had ‘‘no significant
mental health disorders.’’ She also testified
about his diagnosis of antisocial personality disorder and his corresponding ‘‘pervasive disregard for the rights of others,
irritability, aggressiveness, lack of remorse, and impulsivity.’’
Dr. Brown treated Fackrell beginning in
January 2016, and she testified that when
she met Fackrell he had ‘‘no mental health
3.

Counsel specifically objected to Dr. Brown’s
documentation of her encounters with Fackrell while he was housed at USP-Beaumont
for Johns’s murder trial.

016A

604

991 FEDERAL REPORTER, 3d SERIES

history whatsoever.’’ She also testified that
Fackrell said ‘‘[his] childhood had nothing
to do with Johns’s murder’’ and that his
previous prison conduct ‘‘was funny.’’
More than merely undermining his case
for life, Fackrell argues that the use of his
statements to the BOP psychologists violated his Fifth Amendment right against
self-incrimination because he was not
warned that his statements to the psychologists could be used against him at trial.
See Estelle v. Smith, 451 U.S. 454, 468, 101
S.Ct. 1866, 68 L.Ed.2d 359 (1981) (‘‘Because respondent did not voluntarily consent to the pretrial psychiatric examination
after being informed of his right to remain
silent and the possible use of his statements, the State could not rely on what he
said to Dr. Grigson to establish his future
dangerousness.’’). Since he did not receive
Miranda 4 warnings before he spoke to the
doctors during his treatment, he concludes
that the use of those statements violated
his rights under the Fifth Amendment.
[20] We disagree with Fackrell’s argument that the Government violated his
Fifth Amendment right by calling the BOP
psychologists as rebuttal witnesses. Under
United States v. Hall, the Government
may use its own expert witnesses to rebut
a defendant’s experts when the defendant
places his mental health at issue. 152 F.3d
381, 398 (5th Cir. 1988), abrogated on other
grounds by United States v. Martinez–
Salazar, 528 U.S. 304, 120 S.Ct. 774, 145
L.Ed.2d 792 (2000). ‘‘This rule rests upon
the premise that ‘[i]t is unfair and improper to allow a defendant to introduce favorable psychological testimony and then prevent the prosecution from resorting to the
most effective and in most instances the
only means of rebuttal: other psychological
testimony.’ ’’ Id. (alteration in original)
4.

384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694

(quoting Schneider v. Lynaugh, 835 F.2d
570, 575 (5th Cir. 1988)).
This case is distinguishable from Smith
because Fackrell put his mental health at
issue by introducing evidence and testimony from Clemmer, Mendel, and Robert
Johnson. See Smith, 451 U.S. at 472, 101
S.Ct. 1866 (‘‘[A] different situation arises
where a defendant intends to introduce
psychiatric evidence at the penalty
phase.’’). Their testimony described his
past and current struggles with depression, suicide, and other untreated diagnoses. Fackrell offered the evidence as
mitigating evidence, and the Government
was entitled to rebut that evidence using
its own witnesses.
We find no Fifth Amendment error in
the Government’s use of rebuttal testimony from the BOP psychologists.
2. Right to Counsel
[21] Like his Fifth Amendment Miranda argument, Fackrell argues that his
Sixth Amendment right to counsel was
violated because he did not have counsel
when he spoke with the BOP psychologists.
Fackrell objected to the admission of
evidence on the grounds of the Sixth
Amendment right to counsel.
[22] We review de novo Fackrell’s objection to the testimony on the basis of the
Sixth Amendment. See United States v.
Webster, 162 F.3d 308, 333 (5th Cir. 1998).
Because the doctor’s statements were
used against Fackrell at trial, he compares
his treatment to a pretrial government
expert evaluation. Without counsel present
(or a valid waiver of the right to counsel),
he concludes that his rights were violated.
In Powell v. Texas, the Supreme Court
explained that a defendant’s Fifth Amend(1966).

017A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

ment right ‘‘precludes the state from subjecting him to a psychiatric examination
concerning future dangerousness without
first informing the defendant that he has a
right to remain silent and that anything he
says can be used against him at a sentencing proceeding.’’ 492 U.S. 680, 681, 109
S.Ct. 3146, 106 L.Ed.2d 551 (1989) (citing
Smith, 451 U.S. at 461–69, 101 S.Ct. 1866).
The Court further explained that ‘‘the
Sixth Amendment right to counsel precludes such an examination without first
notifying counsel that ‘the psychiatric examination [will] encompass the issue of
their client’s future dangerousness.’ ’’ Id.
(alteration in original) (quoting Smith, 451
U.S. at 471, 101 S.Ct. 1866).
The BOP psychologists served as rebuttal witnesses to Fackrell’s own evidence
about his mental health. Fackrell points to
nothing that indicates that the doctors’
evaluations were carried out in order to
assess his future dangerousness, as was
the case in Smith and Powell. Instead, the
doctors’ examinations were routine and in
keeping with their duty of care to all inmates. We can find no error and thus
affirm the district court’s denial of Fackrell’s objection based on the Sixth Amendment.
3. Psychotherapist-Patient Privilege
[23] Fackrell next argues that even if
the BOP psychologists’ testimony was permissible under the Fifth and Sixth Amendments, their testimony violated the common law psychotherapist-patient privilege.
We disagree.
[24, 25] Though the application of the
psychotherapist-patient privilege is a legal
question, Fackrell did not raise this issue
before the district court. We therefore review for plain error. Avants, 367 F.3d at
443.
The Supreme Court recognized the psychotherapist-patient privilege under Fed-

605

eral Rule of Evidence 501 in Jaffee v.
Redmond. 518 U.S. 1, 8–10, 116 S.Ct. 1923,
135 L.Ed.2d 337 (1996). The Court described the importance of the privilege in
fostering trust and candor between psychotherapists and their patients. Id. at 10,
116 S.Ct. 1923. The benefits of the privilege are great because ‘‘[t]he psychotherapist privilege serves the public interest by
facilitating the provision of appropriate
treatment for individuals suffering the effects of a mental or emotional problem.’’
Id. at 11, 116 S.Ct. 1923. Even still, the
Court noted that the privilege must give
way in certain circumstances. Id. at 18
n.19, 116 S.Ct. 1923.
Though the psychotherapist-patient
privilege is an important feature of our
legal system, we cannot conclude that the
district court committed plain error in permitting the doctors’ testimony.
[26] First, it is not clear that the psychotherapist-patient privilege exists during
the sentencing phase of federal capital trials. ‘‘Information is admissible regardless
of its admissibility under the rules governing admission of evidence at criminal trials
except that information may be excluded if
its probative value is outweighed by the
danger of creating unfair prejudice, confusing the issues, or misleading the jury.’’
18 U.S.C. § 3593(c). Section 3593(c) thus
favors admission of all evidence except
that which creates the risk of unfair prejudice, confusing the issues, or misleading
the jury.
[27] The psychotherapist-patient privilege prevents the admission of communications between psychotherapists and patients, and the privilege applies where the
Federal Rules of Evidence apply after Jaffee (notwithstanding cases where state law
compels a different result). But without
the parameters of the Federal Rules of
Evidence, we cannot conclude that the

018A

606

991 FEDERAL REPORTER, 3d SERIES

privilege applies in the sentencing phase of
capital trials. Without the privilege limiting
the admission of the doctors’ testimony,
the evidence could only be excluded for
one of the reasons listed in § 3593(c), and
we cannot say that the district court plainly erred by permitting this testimony.
[28, 29] Second, even if we assume that
the privilege applies (and that Fackrell did
not waive the privilege), we cannot conclude that the district court’s error was
plain. A plain error is one that is ‘‘so clear
or obvious that ‘the trial judge and prosecutor were derelict in countenancing it,
even absent the defendant’s timely assistance in detecting it.’ ’’ United States v.
Narez–Garcia, 819 F.3d 146, 151 (5th Cir.
2016) (quoting United States v. Hope, 545
F.3d 293, 295–96 (5th Cir. 2008)).
Fackrell’s best argument for applying
the
psychotherapist-patient
privilege
comes from two cases from our sister circuits. The first is Koch v. Cox, 489 F.3d
384 (D.C. Cir. 2007). Koch says that the
psychotherapist-patient privilege can be
waived when the party claiming the privilege ‘‘relies upon the therapist’s diagnoses
or treatment in making or defending a
case.’’ Id. at 389. Here, Fackrell argues
that he did not rely on Dr. Shara Johnson
or Dr. Brown’s treatment in making or
defending his case. The two doctors testified for the Government on rebuttal, so
they did not aid him in making or defending his case.
Following Koch, the Second Circuit decided In re Sims, 534 F.3d 117 (2d Cir.
2008). The Second Circuit agreed with
Koch in Sims, adding that ‘‘a party’s psychotherapist-patient privilege is not overcome when his mental state is put in issue
only by another party.’’ Id. at 134 (emphasis added).
However, neither of those cases addresses Fackrell’s argument. Fackrell’s
mental state was put in issue by his own

trial strategy because his own experts testified about his mental health history.
Even if that evidence is categorized as
rebuttal evidence to the Government’s evidence of aggravating factors, that argument is undercut by the fact that Fackrell
offered mitigating factors related to his
history of depression. The record supports
the conclusion that Fackrell put his mental
state at issue through his choice of expert
witnesses and mitigating evidence submitted to the jury.
Though both Koch and Sims are merely
persuasive authority, they offer some guidance. Fackrell’s claim would likely fail under both Koch and Sims. He has not cited,
nor have we found, support for his position
that the Government could not rebut his
mental health evidence with the testimony
of the BOP psychologists when he put his
mental health at issue. We thus affirm,
concluding that the district court did not
commit plain error under the psychotherapist-patient privilege by permitting the
BOP psychologists to testify.
E. Mental Health Rebuttal Witnesses
[30] Cramer challenges the Government’s use of mental health rebuttal witnesses, arguing that the testimony violated
Federal Rule of Criminal Procedure 12.2
and the Fifth and Sixth Amendments. We
disagree.
[31] Because Cramer did not object at
trial, review is for plain error. See United
States v. Rice, 607 F.3d 133, 138–39 (5th
Cir. 2010).
Cramer presented mental health experts
during the sentencing phase. The experts
focused on his difficult childhood and the
impact of that childhood on his development. The Government presented a rebuttal witness, Dr. Jill Hayes. The Government agreed to limit her testimony to only
direct rebuttal of Cramer’s experts and to

019A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

607

exclude all mention of Johns’s murder.
However, Dr. Hayes testified about statements Cramer allegedly made that indicate his lack of remorse for his crimes.

suit were relevant to rebut the Government’s evidence related to the victim-impact aggravator. We agree with the district court.

Cramer argues that her testimony went
beyond pure rebuttal and thus violated
Rule 12.2 and his Fifth Amendment rights.
Much like cross-examination is generally
limited to the topics inquired about on
direct examination, Cramer argues that
her rebuttal should have been tied to his
mitigation evidence—evidence of his childhood and resulting traumas. See, e.g., Kansas v. Cheever, 571 U.S. 87, 97, 134 S.Ct.
596, 187 L.Ed.2d 519 (2013) (limiting crossexamination to topics from direct examination).

The Federal Death Penalty Act permits
the introduction of aggravating and mitigating evidence unless ‘‘its probative value
is outweighed by the danger of creating
unfair prejudice.’’ 18 U.S.C. § 3593(c). We
review the district court’s evidentiary rulings for abuse of discretion. Snarr, 704
F.3d at 399.

He further argues that his Fifth Amendment right against self-incrimination was
violated when Dr. Hayes testified about his
statements without his permission. Likewise, he argues that her testimony violated
Rule 12.2 by violating the reciprocity principle embedded in the rule that limits rebuttal to the topics raised by the defendant.
We can find no plain error in permitting
Dr. Hayes’s testimony. Her testimony
gave a broad overview of Cramer’s life and
did not stray so far from the topics Cramer raised as to constitute plain error.
Cramer offered testimony about his childhood and his present-day experiences, and
Dr. Hayes’s testimony was similarly broad.
Her testimony about Cramer’s reaction to
Johns’s murder is no broader than the
testimony of Cramer’s own expert. We find
no error either under the Fifth Amendment or under Rule 12.2 and thus affirm.
F. Excluding Evidence of the
Johns Family’s Suit
[32] The district court denied Defendants’ request to introduce evidence from
the Johns family’s civil suit against a BOP
warden. They argued that details of the

The Johns family sued a BOP warden,
alleging that the BOP was liable for
Johns’s wrongful death. In the warden’s
answer urging the court to dismiss the
suit, he said that Johns was primarily responsible for his death because he joined
the SAC and defied the rules prohibiting
drinking and gambling. In Defendants’ trial, the Government argued that Johns was
not responsible for his murder and that
Defendants murdered him to maintain
their reputations.
The district court did not err in excluding this evidence as irrelevant and likely to
confuse the jury. The individual warden’s
response in a lawsuit does not equate to
the BOP’s own statement on Johns’s culpability, as the BOP was not a party to the
civil suit. The evidence is therefore not
relevant and the relationship between the
two cases is so attenuated as to risk confusing the jury. Defendants’ argument
therefore fails.
G. Excluding Evidence related
to the Griffith Murder
[33] During the penalty phase of trial,
the Government presented evidence of
Fackrell’s involvement in the murder of
Ronald Griffith. Fackrell attempted to introduce evidence that the Government offered a plea deal to his co-defendant in the
Griffith murder. The district court denied

020A

608

991 FEDERAL REPORTER, 3d SERIES

Fackrell’s request to introduce the evidence. Fackrell argues that the exclusion
was in error and was not harmless beyond
a reasonable doubt. We disagree.
[34] The district court’s decision to exclude information is reviewed for abuse of
discretion. Snarr, 704 F.3d at 399. If there
was error, reversal is required unless the
Government can show it was harmless beyond a reasonable doubt. United States v.
Jones, 132 F.3d 232, 252 (5th Cir. 1998).
After Johns’s murder, Fackrell was
charged with the deadly assault of Ronald
Griffith, a fellow inmate and alleged sexoffender. Fackrell allegedly participated in
this assault with another inmate and SAC
member, Erik Rekonen. In the prosecution
for Griffith’s murder, the Government
agreed to a ten-year sentence for Rekonen
but pursued the death penalty against
Fackrell. The Government and Rekonen’s
attorney met about a potential plea in
2017. The record reflects that the Government sought to make a deal with Rekonen
in exchange for his testimony against
Fackrell.
The district court excluded the mention
of Griffith’s murder during the guilt phase
of Johns’s murder trial but permitted its
mention during the sentencing phase. The
Government presented Griffith’s murder
as aggravating evidence, and Fackrell argued that evidence of Rekonen’s plea deal
should have been permitted as mitigating
evidence. Fackrell asserts that Rekonen’s
plea deal was relevant because it demonstrated that his equally culpable co-defendant would not receive the death penalty.
See 18 U.S.C. § 3592(a)(4) (‘‘In determining whether a sentence of death is to be
imposed on a defendant, the finder of fact
shall consider any mitigating factor, including TTT [whether] [a]nother defendant
or defendants, equally culpable in the
crime, will not be punished by death.’’). He
also asserts that Rekonen’s lesser sentence

reflects the BOP’s acknowledgment that
prison politics force inmates to violently
assault alleged sex-offenders.
[35, 36] Though excluding mitigating
evidence may violate a capital defendant’s
right to due process, Green v. Georgia, 442
U.S. 95, 97, 99 S.Ct. 2150, 60 L.Ed.2d 738
(1979), we cannot conclude that the district
court’s exclusion was in error. 18 U.S.C.
§ 3592(a)(4) allows defendants to put on
mitigating evidence of their co-defendant’s
culpability—in trials for the related offense. Here, Fackrell can point to nothing
in the statute nor case law that commands
district courts to permit mitigating evidence about co-defendants from other trials. The statute refers to other defendants
‘‘in the crime,’’ and we conclude that the
crime referenced in the statute is the
crime for which Fackrell faced the death
penalty, Johns’s murder. In doing so, we
follow our sister circuit. See United States
v. Gabrion, 719 F.3d 511, 524 (6th Cir.
2013) (‘‘This factor does not measure the
defendant’s culpability itself, but instead
considers—as a moral data point—whether
that same level of culpability, for another
participant in the same criminal event, was
thought to warrant a sentence of death.’’)
(emphasis added).
[37] Evidence of Rekonen’s plea could
also have been admitted as ‘‘catch-all’’ mitigation evidence under 18 U.S.C.
§ 3592(a)(8). Any error in excluding this
evidence is harmless given that the jury
already saw videos of Griffith’s assault and
heard evidence of Fackrell’s involvement.
We cannot say that evidence of Rekonen’s
plea would have ‘‘diminish[ed] [his] culpability or otherwise mitigate against a sentence of death.’’ Id.
Furthermore, jurors found several mitigating factors related to Griffith’s murder
even without the evidence of Rekonen’s
plea deal. Six jurors found it mitigating

021A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

609

that officers placed Griffith near other inmates knowing that he may be assaulted.
Another six jurors found that Fackrell and
other inmates had to play prison politics to
stay safe. This further demonstrates that
any perceived error would be harmless.

Thus, there was no error in the Government’s mention of Cramer’s charge for the
2012 assault. We affirm.

We affirm the district court’s exclusion
of evidence of Rekonen’s plea deal related
to Griffith’s murder.

[42] The Government alleged four statutory aggravators in its notice of intent to
seek the death penalty against Fackrell,
including the 18 U.S.C. § 3592(c)(2) aggravator for use of a firearm and the
§ 3592(c)(4) aggravator for inflicting death
or serious bodily injury. Fackrell has previous federal convictions for brandishing a
firearm during a crime of violence and
possession of a prohibited object. He also
has a state law conviction for aggravated
assault.

H. Acquitted Conduct as Evidence
of Future Dangerousness
[38] Cramer challenges the Government’s use of his role in a 2012 assault
charge as evidence of future dangerousness. Cramer was ultimately acquitted of
the 2012 assault, and he argues that the
Government violated his Fifth Amendment
protection against double jeopardy. We
disagree.
[39] Cramer did not object at trial.
Review is for plain error. Avants, 367 F.3d
at 443.
[40, 41] ‘‘[A]n acquittal in a criminal
case does not preclude the Government
from relitigating an issue when it is presented in a subsequent action governed by
a lower standard of proof.’’ Dowling v.
United States, 493 U.S. 342, 349, 110 S.Ct.
668, 107 L.Ed.2d 708 (1990). ‘‘Extraneous
offenses offered at the punishment phase
of a capital trial need not be proven beyond a reasonable doubt.’’ Vega v. Johnson, 149 F.3d 354, 359 (5th Cir. 1998).
Under Dowling and Vega, the Government was permitted to introduce evidence
of Cramer’s conduct related to the 2012
assault for which he was acquitted. At trial
for the 2012 assault, the Government could
not prove that he committed the assault
beyond a reasonable doubt. However, the
Government was not required to prove the
2012 assault beyond a reasonable doubt to
mention it at the punishment phase of this
trial. See id.

I. Categorical Approach and Fackrell’s
Prior Convictions

The district court did not use the categorical approach in determining that his
previous convictions fit within § 3592(c)(2)
and (c)(4). Fackrell argues that the district
court should have used the categorical approach to compare the elements of his
prior convictions with the elements of the
offenses described under §§ 3592(c)(2) and
(c)(4). He argues that his convictions do
not fall within the ambit of §§ 3592(c)(2)
and (c)(4), and thus his sentence must be
reversed. We disagree.
[43, 44] Since the district court’s decision to reject the categorical approach was
a legal conclusion, we review it de novo.
United States v. Jackson, 549 F.3d 963,
969 (5th Cir 2008). The analysis is subject
to harmless-error review as well. See United States v. Torrez, 869 F.3d 291, 313 (4th
Cir. 2017).
Our circuit has not yet addressed whether the categorical approach is the appropriate analysis under the Federal Death
Penalty Act. Both sides present persuasive
arguments, but we need not answer the
question to resolve this issue. Even if we
assume that the categorical approach ap-

022A

610

991 FEDERAL REPORTER, 3d SERIES

plies and thus the § 3592(c)(2) and (c)(4)
aggravators were invalid, the sentence can
be affirmed if it would have been imposed
without the invalid aggravators. Jones, 132
F.3d at 251w52.
The Government argues (and Fackrell
concedes) that his prior convictions were
admissible at the selection phase as nonstatutory aggravators. Fackrell argues
that the jury necessarily would have put
more weight on statutory aggravators than
non-statutory aggravators, such that reversal is warranted for re-sentencing.
Nothing in our precedent compels such a
result, so Fackrell’s argument fails.
J. Fackrell’s Hobbs Act Claim
[45] Fackrell also challenges the characterization of his Hobbs Act robbery conviction as a statutory aggravator under 18
U.S.C. § 3592(c). He argues that the district court erred by permitting the Government to use his conviction as a § 3592(c)
aggravator after United States v. Davis,
––– U.S. ––––, 139 S. Ct. 2319, 204 L.Ed.2d
757 (2019).
[46] Fackrell preserved this argument
at trial, and review is de novo. United
States v. Hebert, 131 F.3d 514, 525 (5th
Cir. 1997).
The § 3592(c) aggravator includes convictions for violent crimes, and Hobbs Act
robbery is a violent crime. United States v.
Buck, 847 F.3d 267, 275 (5th Cir. 2017).
The Government listed Fackrell’s Hobbs
Act conviction as the basis for the aggravator given its characterization as a crime of
violence. Fackrell argues that this characterization is erroneous after Davis, where
the Supreme Court held that the residual
clause in § 924(c)(3)(B) was unconstitutionally vague. ––– U.S. ––––, 139 S. Ct. 2319,
2323, 204 L.Ed.2d 757 (2019). He also argues that his Hobbs Act conviction was not
based on a use of force because it can be

committed by threatening harm to an intangible economic interest.
[47] Fackrell’s first argument is foreclosed by our decision in Buck. Hobbs Act
robbery is a crime of violence in this circuit and therefore qualifies as an aggravator under § 3592(c). See Buck, 847 F.3d at
275.
Fackrell’s second argument also fails.
Hobbs Act extortion may be accomplished
without the use of force. See United States
v. Nadaline, 471 F.2d 340, 344 (5th Cir.
1973). This says nothing of Hobbs Act
robbery for which Fackrell was charged,
and we find no error in listing Fackrell’s
Hobbs Act robbery conviction as an aggravator under § 3592(c).
K. Jury Instructions on Mitigating
Evidence
[48] Fackrell challenges the district
court’s penalty-phase jury instructions on
mitigating evidence, arguing that the twostep instruction for finding mitigating factors violates 18 U.S.C. § 3593(d). We disagree.
[49] Fackrell preserved his objections
to the verdict form. This Court ‘‘review[s]
a challenge to jury instructions for abuse
of discretion, ‘affording the trial court substantial latitude in describing the law to
the jurors.’ ’’ United States v. Ortiz-Mendez, 634 F.3d 837, 839 (5th Cir. 2011)
(quoting United States v. Orji-Nwosu, 549
F.3d 1005, 1008 (5th Cir. 2008)).
Section 3593(d) provides that ‘‘[a] finding with respect to a mitigating factor may
be made by 1 or more members of the
jury, and any member of the jury who
finds the existence of a mitigating factor
may consider such factor established TTTT’’
The district court’s instruction told the
jury that it could ‘‘find that the defendant
has proved by a preponderance of the

023A

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

evidence the existence of [a mitigating]
factor and that it is mitigating.’’
The district court’s instruction requires
jurors to find that a fact was proven and
then find that the fact was mitigating.
Fackrell argues that this instruction permitted the jury to disregard mitigating
evidence because it could find that a fact
was proven but then conclude that the fact
was not mitigating.
Fackrell’s argument is undercut by 18
U.S.C. § 3592(a), which requires jurors to
consider ‘‘any mitigating factor.’’ 18 U.S.C.
§ 3592(a). Whether jurors first evaluated
whether Fackrell proved the existence of
some facts and then determined they were
mitigating or answered both questions at
once, the court’s instructions were proper.
See United States v. Mikhel, 889 F.3d
1003, 1055 (9th Cir. 2018) (‘‘[R]egardless of
whether the jury found that the proffered
mitigating factors were factually unsupported or that they simply did not justify a
lesser sentence, the final result is the
same.’’).
We affirm the district court’s denial of
Fackrell’s objection to the jury instruction
on mitigating factors.
L. Marshalling the Evidence
in Jury Instructions
[50] Defendants argue that the district
court impermissibly ‘‘marshalled the evidence’’ on the jury instructions for future
dangerousness. We disagree.
[51] Defendants failed to object to the
instructions on this basis at trial. Review is
for plain error. Avants, 367 F.3d at 443.
The district court’s oral and written jury
instructions defined future dangerousness
and listed several pieces of evidence that
the Government offered as future dangerousness evidence. The instructions did not
list any of the defense’s evidence against
future dangerousness.

611

[52] Though once common, the practice of judges marshalling the evidence
‘‘has fallen into widespread disfavor.’’
United States v. Mundy, 539 F.3d 154, 158
(2d Cir. 2008). Courts should refrain from
commenting on the evidence at trial and
should avoid one-sided summaries or comments. See Quericia v. United States, 289
U.S. 466, 470, 53 S.Ct. 698, 77 L.Ed. 1321
(1933).
In United States v. Coonce, the Eighth
Circuit rejected a defendant’s claim that
the district court had improperly summarized the evidence of future dangerousness
in favor of the government. 932 F.3d 623,
637 (8th Cir. 2019). The pattern jury instructions language used ‘‘as evidenced by’’
to describe pertinent facts related to the
aggravators, and the Eighth Circuit cautioned district courts against removing
that language from the instruction. Id. at
638.
Here, the pattern instructions also included ‘‘as evidenced by’’ and summarized
the evidence. Such language is meant to
aid and focus the jurors’ analysis on particular pieces of evidence rather than presenting them an open-ended question. See
id. at 637.
We cannot conclude that the district
court plainly erred by focusing the jury’s
analysis on particular pieces of evidence.
In fact, the district court listed Defendants’ own evidence of mitigating factors
in its instructions as well, further proof
that the court did not err by giving a onesided summary of the evidence.
We affirm, finding no error in the district court’s oral and written jury instructions.
M. Jury Question on Non-unanimity
[53] Defendants challenge the district
court’s supplemental jury instructions.

024A

612

991 FEDERAL REPORTER, 3d SERIES

They argue that the district court refused
to instruct the jurors after they asked
about the consequences of a non-unanimous verdict. We disagree.
[54] Supplemental jury instructions
are reviewed for abuse of discretion in
light of the entire charge. United States v.
Hale, 685 F.3d 522, 544–45 (5th Cir. 2012).
Prior to voir dire, Defendants requested
a preemptive instruction on the consequence of a split verdict, but the court
denied their requests under Jones v. United States. In Jones, the Supreme Court
held that the Eighth Amendment does not
require every jury to be told of the effect
of non-unanimity. See 527 U.S. 373, 383,
119 S.Ct. 2090, 144 L.Ed.2d 370 (1999).
[55] Later during the sentencing jurors’ deliberations, they sent a note to the
court asking, ‘‘What is the process if we
are not unanimous with our verdict?’’ The
district court sent a note back to the jurors
instructing them to ‘‘[p]lease continue your
deliberations.’’
[56] ‘‘When evaluating the adequacy of
supplemental jury instructions, we ask
whether the court’s answer was reasonably
responsive to the jury’s question and
whether the original and supplemental instructions as a whole allowed the jury to
understand the issue presented to it.’’
United States v. Stevens, 38 F.3d 167, 170
(5th Cir. 1994).
Defendants argue that even if the district court’s initial refusal to instruct on
non-unanimity was correct under Jones,
Jones does not control where the jurors
directly asked about non-unanimity. They
argue that the district court’s response
should have been given in open court and
should have answered the jurors’ question.
We cannot conclude that the district
court erred by responding to the jurors’
question in writing. See United States v.

Straach, 987 F.2d 232, 242–43 (5th Cir.
1993). Nor can we conclude that the court
abused its discretion by not providing a
non-unanimity instruction in response to
the jurors’ question. Congress did not require such an instruction among the mandatory instructions that the district court
must give. See Jones, 527 U.S. at 383, 119
S.Ct. 2090 (citing 18 U.S.C. § 3593(f)).
[57] Even beyond Jones, we can find
no error where the district court’s instructions explained that each juror must consider the evidence individually to render a
verdict. The district court instructed the
jurors that the verdict must represent the
judgment of each of them and that they
each must decide the case for themselves.
The fact that many different groupings of
jurors found various mitigating factors for
Defendants further demonstrates that jurors acted individually.
We affirm the district court’s supplemental jury instruction to the sentencing
jury.
N. Incomplete Record
[58] Defendants challenge the sufficiency of the record on appeal, arguing
that missing components impair their ability to have a full appeal. We disagree.
The record on appeal includes transcripts of proceedings. FED. R. APP. P.
10(a). If the transcript of a hearing or trial
is unavailable, Rule 10(c) permits the appellant to prepare part of that record from
their recollection. FED. R. APP. P. 10(c). The
district court did not permit Defendants to
recollect parts of the record they contend
are missing, and they argue that they do
not have a substantial part of the record
on appeal.
[59] Where the defendant has new
counsel on appeal, the court will reverse if
(1) a missing portion of the record is substantial and significant, and (2) the trial

025A

613

U.S. v. FACKRELL
Cite as 991 F.3d 589 (5th Cir. 2021)

court’s reconstruction is not a substantially
verbatim account. See United States v.
Pace, 10 F.3d 1106, 1124–25 (5th Cir.
1993).
Defendants assert that the record is
missing vital conferences, including the
conference about the testimony of Elizabeth Rose, the Government’s final witness
in the guilt phase of trial. Rose was in a
holding cell near Fackrell and Cramer’s
cells during their trial. She testified that
she heard them making fun of the prosecutor’s opening argument, laughing about
stabbing Johns 74 times, and Fackrell saying that ‘‘[i]t didn’t feel like that many
[stabbings] when it was happening.’’
Rose was represented by an Assistant
Federal Public Defender for the Eastern
District of Texas, as was Cramer. She was
facing a life sentence for conspiracy to
possess and intent to distribute methamphetamine. She contacted her attorney and
told him that she wanted him to tell the
Government about what she heard. Rose’s
attorney petitioned to withdraw from her
case given the conflict of interest created
by her desire to testify against Cramer.
Defendants’ counsel believes that the court
discussed Rose’s testimony in an unrecorded conference in chambers and that the
missing record prejudices their defense.
Counsel also believes that the parties discussed the potential conflict of interest
facing the Federal Public Defender.
[60] Defendants also identify the conference about the penalty-phase jury
charge as another important proceeding
that was unrecorded. The district court
indicated that it wanted to meet with the
parties to decide on the penalty-phase instructions. No recording of the conference
exists. Several of counsel’s proposed mitigating instructions did not appear in the
instructions, and Defendants now argue
that the court ruled on their proposed
instructions at the unrecorded conference.

Defendants arguments fail because the
discussion of Rose’s testimony was not a
‘‘hearing or trial’’ within the meaning of
Rule 10. Nor was the jury charge conference a ‘‘session of the court’’ pursuant to
the Court Reporter’s Act because it did
not occur in open court. United States v.
Jenkins, 442 F.2d 429, 438 (5th Cir. 1971).
Neither the Federal Rules of Appellate
Procedure nor the Court Reporter’s Act
compel reversal here. Furthermore, Defendants have not demonstrated that these
omissions are substantial or significant.
Defendants’ arguments fail.
O. Cumulative Reversal
Defendants’ final argument is that even
if no individual error is reversible, the
cumulative effect of the errors warrants
reversal.
[61] An appellate court may reverse a
conviction by aggregating otherwise non–
reversible errors that combine to deny the
defendant’s right to a fair trial. United
States v. Delgado, 672 F.3d 320, 343–44
(5th Cir. 2012) (en banc).
[62] Because we do not find that the
district court made any errors, cumulative
reversal is unavailable.
III. CONCLUSION
For the aforementioned reasons, we AFFIRM the sentences and convictions of
Ricky Fackrell and Christopher Cramer.

026A

,

Appendix B
United States v. Fackrell; Cramer,
No. 18-40598 (5th Cir., May 17, 2021),
Order denying rehearing en banc

027A

Case: 18-40598

Document: 00515863945

028A

Page: 1

Date Filed: 05/17/2021

Case: 18-40598

Document: 00515863945

029A

Page: 2

Date Filed: 05/17/2021

Appendix C
Text of constitutional and statutory provisions at issue

030A

CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE
U.S. Const., Amend. V
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
U.S. Const. Amend. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.
U.S. Const. Amend. VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
Federal Death Penalty Act of 1994
(18 U.S.C. §§ 3591-3598)
§ 3593. Special hearing to determine whether a sentence of death is
justified
(a) Notice by the Government.—If, in a case involving an offense described in section
3591, the attorney for the government believes that the circumstances of the
offense are such that a sentence of death is justified under this chapter, the
attorney shall, a reasonable time before the trial or before acceptance by the court
of a plea of guilty, sign and file with the court, and serve on the defendant, a
notice—
(1) stating that the government believes that the circumstances of the offense
are such that, if the defendant is convicted, a sentence of death is justified
under this chapter and that the government will seek the sentence of death;
and

031A

(2) setting forth the aggravating factor or factors that the government, if the
defendant is convicted, proposes to prove as justifying a sentence of death.
The factors for which notice is provided under this subsection may include factors
concerning the effect of the offense on the victim and the victim’s family, and may
include oral testimony, a victim impact statement that identifies the victim of the
offense and the extent and scope of the injury and loss suffered by the victim and
the victim’s family, and any other relevant information. The court may permit the
attorney for the government to amend the notice upon a showing of good cause.
(b) Hearing Before a Court or Jury.—If the attorney for the government has filed a
notice as required under subsection (a) and the defendant is found guilty of or
pleads guilty to an offense described in section 3591, the judge who presided at
the trial or before whom the guilty plea was entered, or another judge if that judge
is unavailable, shall conduct a separate sentencing hearing to determine the
punishment to be imposed. The hearing shall be conducted—
(1) before the jury that determined the defendant’s guilt;
(2) before a jury impaneled for the purpose of the hearing if—
(A) the defendant was convicted upon a plea of guilty;
(B) the defendant was convicted after a trial before the court sitting
without a jury;
(C) the jury that determined the defendant’s guilt was discharged for
good cause; or
(D) after initial imposition of a sentence under this
section, reconsideration of the sentence under this section is
necessary; or
(3) before the court alone, upon the motion of the defendant and with the
approval of the attorney for the government.
A jury impaneled pursuant to paragraph (2) shall consist of 12 members, unless,
at any time before the conclusion of the hearing, the parties stipulate, with the
approval of the court, that it shall consist of a lesser number.
(c) Proof of Mitigating and Aggravating Factors.—
Notwithstanding rule 32 of the Federal Rules of Criminal Procedure, when a
defendant is found guilty or pleads guilty to an offense under section 3591, no
presentence report shall be prepared. At the sentencing hearing, information may
be presented as to any matter relevant to the sentence, including any mitigating

032A

or aggravating factor permitted or required to be considered under section 3592.
Information presented may include the trial transcript and exhibits if the hearing
is held before a jury or judge not present during the trial, or at the trial judge’s
discretion. The defendant may present any information relevant to a mitigating
factor. The government may present any information relevant to an aggravating
factor for which notice has been provided under subsection (a). Information is
admissible regardless of its admissibility under the rules governing admission of
evidence at criminal trials except that information may be excluded if its probative
value is outweighed by the danger of creating unfair prejudice, confusing the
issues, or misleading the jury. For the purposes of the preceding sentence, the fact
that a victim, as defined in section 3510, attended or observed the trial shall not
be construed to pose a danger of creating unfair prejudice, confusing the issues, or
misleading the jury. The government and the defendant shall be permitted to
rebut any information received at the hearing, and shall be given fair opportunity
to present argument as to the adequacy of the information to establish the
existence of any aggravating or mitigating factor, and as to the appropriateness
in the case of imposing a sentence of death. The government shall open the
argument. The defendant shall be permitted to reply. The government shall then
be permitted to reply in rebuttal. The burden of establishing the existence of any
aggravating factor is on the government, and is not satisfied unless the existence
of such a factor is established beyond a reasonable doubt. The burden of
establishing the existence of any mitigating factor is on the defendant, and is not
satisfied unless the existence of such a factor is established by a preponderance
of the information.
(d) Return of Special Findings.—
The jury, or if there is no jury, the court, shall consider all the information received
during the hearing. It shall return special findings identifying any aggravating
factor or factors set forth in section 3592 found to exist and any other aggravating
factor for which notice has been provided under subsection (a) found to exist. A
finding with respect to a mitigating factor may be made by 1 or more members
of the jury, and any member of the jury who finds the existence of a mitigating
factor may consider such factor established for purposes of this section regardless
of the number of jurors who concur that the factor has been established. A finding
with respect to any aggravating factor must be unanimous. If no aggravating
factor set forth in section 3592 is found to exist, the court shall impose a sentence
other than death authorized by law.
(e) Return of a Finding Concerning a Sentence of Death.—If, in the case of—
(1) an offense described in section 3591(a)(1), an aggravating factor required
to be considered under section 3592(b) is found to exist;

033A

(2) an offense described in section 3591(a)(2), an aggravating factor required
to be considered under section 3592(c) is found to exist; or
(3) an offense described in section 3591(b), an aggravating factor required to
be considered under section 3592(d) is found to exist,
the jury, or if there is no jury, the court, shall consider whether all the aggravating
factor or factors found to exist sufficiently outweigh all the mitigating factor or
factors found to exist to justify a sentence of death, or, in the absence of a
mitigating factor, whether the aggravating factor or factors alone are sufficient to
justify a sentence of death. Based upon this consideration, the jury by unanimous
vote, or if there is no jury, the court, shall recommend whether the defendant
should be sentenced to death, to life imprisonment without possibility of release
or some other lesser sentence.
(f) Special Precaution To Ensure Against Discrimination.—
In a hearing held before a jury, the court, prior to the return of a finding under
subsection (e), shall instruct the jury that, in considering whether a sentence of
death is justified, it shall not consider the race, color, religious beliefs, national
origin, or sex of the defendant or of any victim and that the jury is not to
recommend a sentence of death unless it has concluded that it would recommend
a sentence of death for the crime in question no matter what the race, color,
religious beliefs, national origin, or sex of the defendant or of any victim may be.
The jury, upon return of a finding under subsection (e), shall also return to the
court a certificate, signed by each juror, that consideration of the race, color,
religious beliefs, national origin, or sex of the defendant or any victim was not
involved in reaching his or her individual decision and that the individual juror
would have made the same recommendation regarding a sentence for the crime in
question no matter what the race, color, religious beliefs, national origin, or sex
of the defendant or any victim may be.
(Added Pub. L. 103–322, title VI, § 60002(a), Sept. 13, 1994, 108 Stat. 1964;
amended
Pub. L. 105–6, § 2(c), Mar. 19, 1997, 111 Stat. 12; Pub. L. 107–273, div. B, title
IV,
§ 4002(e)(8), Nov. 2, 2002, 116 Stat. 1810.)
§ 3595. Review of a sentence of death
(a) Appeal.—
In a case in which a sentence of death is imposed, the sentence shall be subject
to review by the court of appeals upon appeal by the defendant. Notice of appeal
must be filed within the time specified for the filing of a notice of appeal. An

034A

appeal under this section may be consolidated with an appeal of the judgment
of conviction and shall have priority over all other cases.
(b) Review.—The court of appeals shall review the entire record in the case,
including—
(1) the evidence submitted during the trial;
(2) the information submitted during the sentencing hearing;
(3) the procedures employed in the sentencing hearing; and
(4) the special findings returned under section 3593(d).
(c) Decision and Disposition.—
(1) The court of appeals shall address all substantive and procedural issues
raised on the appeal of a sentence of death, and shall consider whether the
sentence of death was imposed under the influence of passion, prejudice,
or any other arbitrary factor and whether the evidence supports the special
finding of the existence of an aggravating factor required to be considered
under section 3592.
(2) Whenever the court of appeals finds that—
(A) the sentence of death was imposed under the influence of passion,
prejudice, or any other arbitrary factor;
(B) the admissible evidence and information adduced does not support
the special finding of the existence of the required aggravating factor;
or
(C) the proceedings involved any other legal error requiring reversal of
the sentence that was properly preserved for appeal under the rules
of criminal procedure,
the court shall remand the case for reconsideration under section 3593 or
imposition of a sentence other than death. The court of appeals shall not
reverse or vacate a sentence of death on account of any error which can be
harmless, including any erroneous special finding of an aggravating factor,
where the Government establishes beyond a reasonable doubt that the
error was harmless.
(3) The court of appeals shall state in writing the reasons for its disposition of
an appeal of a sentence of death under this section.
(Added Pub. L. 103–322, title VI, § 60002(a), Sept. 13, 1994, 108 Stat. 1967.)

035A

Federal Rule of Criminal Procedure 43. Defendant’s Presence
(a) WHEN REQUIRED. Unless this rule, Rule 5, or Rule 10 provides otherwise, the
defendant must be present at:
(1) the initial appearance, the initial arraignment, and the plea;
(2) every trial stage, including jury impanelment and the return of the verdict;
and
(3) sentencing.
(b) WHEN NOT REQUIRED. A defendant need not be present under any of the following
circumstances:
(1) Organizational Defendant. The defendant is an organization represented
by counsel who is present.
(2) Misdemeanor Offense. The offense is punishable by fine or by imprisonment
for not more than one year, or both, and with the defendant's written
consent, the court permits arraignment, plea, trial, and sentencing to occur
by video teleconferencing or in the defendant's absence
(3) Conference or Hearing on a Legal Question. The proceeding involves only a
conference or hearing on a question of law.
(4) Sentence Correction. The proceeding involves the correction or reduction of
sentence under Rule 35 or 18 U.S.C. §3582 (c).
(c) WAIVING CONTINUED PRESENCE.
(1) In General. A defendant who was initially present at trial, or who had
pleaded guilty or nolo contendere, waives the right to be present under the
following circumstances:
(A) when the defendant is voluntarily absent after the trial has begun,
regardless of whether the court informed the defendant of an
obligation to remain during trial;
(B) in a noncapital case, when the defendant is voluntarily absent during
sentencing; or
(C) when the court warns the defendant that it will remove the
defendant from the courtroom for disruptive behavior, but the
defendant persists in conduct that justifies removal from the
courtroom.

036A

(2) Waiver’s Effect. If the defendant waives the right to be present, the trial
may proceed to completion, including the verdict's return and sentencing,
during the defendant's absence.
(As amended Apr. 22, 1974, eff. Dec. 1, 1975; Pub. L. 94–64, §3(35), July 31, 1975, 89
Stat. 376; Mar. 9, 1987, eff. Aug. 1, 1987; Apr. 27, 1995, eff. Dec. 1, 1995; Apr. 24,
1998, eff. Dec. 1, 1998; Apr. 29, 2002, eff. Dec. 1, 2002; Apr. 26, 2011, eff. Dec. 1, 2011.)
Federal Rule of Appellate Procedure 10. The Record on Appeal
(a) COMPOSITION OF THE RECORD ON APPEAL. The following items constitute the record
on appeal:
(1) the original papers and exhibits filed in the district court;
(2) the transcript of proceedings, if any; and
(3) a certified copy of the docket entries prepared by the district clerk.
(b) THE TRANSCRIPT OF PROCEEDINGS.
(1) Appellant's Duty to Order. Within 14 days after filing the notice of appeal
or entry of an order disposing of the last timely remaining motion of a type
specified in Rule 4(a)(4)(A), whichever is later, the appellant must do either
of the following:
(A) Order from the reporter a transcript of such parts of the proceedings
not already on file as the appellant considers necessary, subject to a
local rule of the court of appeals and with the following qualifications:
(i) the order must be in writing;
(ii) if the cost of the transcript is to be paid by the United States
under the Criminal Justice Act, the order must so state; and
(iii) the appellant must, within the same period, file a copy of the
order with the district clerk; or
(B) file a certificate stating that no transcript will be ordered.
(2) Unsupported Finding or Conclusion. If the appellant intends to urge on
appeal that a finding or conclusion is unsupported by the evidence or is
contrary to the evidence, the appellant must include in the record a
transcript of all evidence relevant to that finding or conclusion.

037A

(3) Partial Transcript. Unless the entire transcript is ordered:
(A) the appellant must—within the 14 days provided in Rule 10(b)(1)—
file a statement of the issues that the appellant intends to present on
the appeal and must serve on the appellee a copy of both the order or
certificate and the statement;
(B) if the appellee considers it necessary to have a transcript of other
parts of the proceedings, the appellee must, within 14 days after the
service of the order or certificate and the statement of the issues, file
and serve on the appellant a designation of additional parts to be
ordered; and
(C) unless within 14 days after service of that designation the appellant
has ordered all such parts, and has so notified the appellee, the
appellee may within the following 14 days either order the parts or
move in the district court for an order requiring the appellant to do
so.
(4) Payment. At the time of ordering, a party must make satisfactory
arrangements with the reporter for paying the cost of the transcript.
(c) STATEMENT OF THE EVIDENCE WHEN
WHEN A TRANSCRIPT IS UNAVAILABLE.

THE

PROCEEDINGS WERE NOT RECORDED

OR

If the transcript of a hearing or trial is unavailable, the appellant may prepare a
statement of the evidence or proceedings from the best available means, including
the appellant's recollection. The statement must be served on the appellee, who may
serve objections or proposed amendments within 14 days after being served. The
statement and any objections or proposed amendments must then be submitted to
the district court for settlement and approval. As settled and approved, the statement
must be included by the district clerk in the record on appeal.
(d) AGREED STATEMENT AS THE RECORD ON APPEAL.
In place of the record on appeal as defined in Rule 10(a), the parties may prepare,
sign, and submit to the district court a statement of the case showing how the issues
presented by the appeal arose and were decided in the district court. The statement
must set forth only those facts averred and proved or sought to be proved that are
essential to the court's resolution of the issues. If the statement is truthful, it—
together with any additions that the district court may consider necessary to a full
presentation of the issues on appeal—must be approved by the district court and must
then be certified to the court of appeals as the record on appeal. The district clerk
must then send it to the circuit clerk within the time provided by Rule 11. A copy of
the agreed statement may be filed in place of the appendix required by Rule 30.

038A

(e) CORRECTION OR MODIFICATION OF THE RECORD.
(1) If any difference arises about whether the record truly discloses what
occurred in the district court, the difference must be submitted to and
settled by that court and the record conformed accordingly.
(2) If anything material to either party is omitted from or misstated in the
record by error or accident, the omission or misstatement may be corrected
and a supplemental record may be certified and forwarded:
(A) on stipulation of the parties;
(B) by the district court before or after the record has been forwarded;
or
(C) by the court of appeals.
(3) All other questions as to the form and content of the record must be
presented to the court of appeals.
(As amended Apr. 30, 1979, eff. Aug. 1, 1979; Mar. 10, 1986, eff. July 1, 1986; Apr.
30, 1991, eff. Dec. 1, 1991; Apr. 22, 1993, eff. Dec. 1, 1993; Apr. 27, 1995, eff. Dec. 1,
1995; Apr. 24, 1998, eff. Dec. 1, 1998; Mar. 26, 2009, eff. Dec. 1, 2009.)

039A

